No.
___________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
_________________________________________
STEPHEN S. BONA,
Petitioner,
v.
ILLINOIS ,
Respondent.
______________________________________
Petition for a Writ of Certiorari to the
Appellate Court of Illinois, Second District
______________________________________
PETITION FOR WRIT OF CERTIORARI
____________________________________
Stephen L. Richards *
Joshua S.M. Richards
53 West Jackson, Suite 756
Chicago, IL 60604
Sricha5461@aol.com
Attorneys for the Petitioner Stephen S. Bona
* Counsel of Record

ii

QUESTION PRESENTED FOR REVIEW
1. Whether, in a case involving political
speech, the first amendment allows a
state to criminalize a knowing threat
of violence directed against a political
official without a showing of an
intent to do harm, and whether a
“true threat” requires an intent to do
harm.

iii

TABLE OF CONTENTS
QUESTION PRESENTED……………..……...ii
TABLE OF CONTENTS………….….………...iii
TABLE OF AUTHORITIES…………..……..…vi
OPINIONS BELOW……..………………….…....1
JURISDICTION………………………….….........1
CONSTITUTIONAL
PROVISIONS INVOLVED…………..…………..2
STATEMENT OF THE CASE…………….......3

iv

REASON FOR GRANTING THE
PETITION………………………………..……….17
I:
THIS COURT SHOULD GRANT THE
PETITION TO DETERMINE WHETHER THIS
COURT’S DECISION IN VIRGINIA V. BLACK,
THAT THE FIRST AMENDMENT ALLOWS A
STATE TO CRIMINALIZE A “TRUE THREAT”
ONLY IF THE SPEAKER SUBJECTIVELY
INTENDS SERIOUS HARM, HAS BEEN
MODIFIED BY THIS COURT’S DECISION IN
ELONIS V. UNITED STATES TO ALLOW A
TRUE
THREAT
BASED
UPON
THE
SPEAKER’S
KNOWLEDGE
THAT
HIS
STATEMENTS
WOULD
CAUSE
APPREHENSION TO A REASONABLE
LISTENER..……...…….…………………………9
CONCLUSION…………………………………..26
APPENDIX A (Disposition of the Illinois
Supreme Court denying the petition for leave to
appeal)
……………………………………………….App. 1

v

APPENDIX B (Opinion of the Illinois Court of
Appeals, Second District)…………...…..App. 3
APPENDIX C (Oral Ruling of the Circuit
Court of Du Page County for the Eighteenth
Judicial Circuit of Illinois)
……………………………………………….App. 50

vi

TABLE OF AUTHORITIES
CASES
U.S. Supreme Court Cases

Page

Citizens United v. Fed. Election
Comm'n, 558 U.S. 310 (2010)………..…….14, 15
Clark v. Community for Creative
Non–Violence, 468 U.S. 288 (1984)….………..12
Elonis v. United States, 575 U.S. ___
135 S. Ct. 2001 (2015)………....21, 22, 23, 24, 25

Fed. Election Comm'n v. Wisconsin Right
To Life, Inc., 551 U.S. 449, 464 (2007)………..16
Giboney v. Empire Storage & Ice Co., 3
36 U.S. 490 (1949)……………………………….13

Hamling v. United States, 418 U.S. 87
(1974……..……………………………………23, 24

Matal v. Tam, 582 U.S. ––––
37 S.Ct. 1744, 1764–65 (2017)…………………13

vii

McCutcheon v. Fed. Election Comm'n, 134 S.
Ct. 1434, 1446 (2014)…………………14, 15, 16

McIntyre v. Ohio Elections Comm'n,
514 U.S. 334 (1995)……………………..…..14, 15

Reed v. Town of Gilbert, 576 U.S. ––––
135 S.Ct. 2218 (2015)………………………..12, 13

United States v. Alvarez, 567 U.S. 709
(2012)………………………………………………12

United States v. Stevens,
559 U.S. 460 (2010)……………………….....12

Virginia v. Black, 538 U.S. 343 (2003)…...19, 24
Ward v. Rock Against Racism, 491 U.S. 781
(1989)………………………………………………12

Watts v. United States, 394 U.S. 705
(1969)…………………………………..….…..12, 19
Other Federal Cases

Porter v. Ascension Parish School Board,
393 F.3d 608 (5th Cir. 2004)……………………19

viii

United States v. Cassel, 408 F.3d 622
(9th Cir. 2009)…………………………….………19

United States v. Clemens, 738 F.3d 1
(1st Cir. 2013)…………………………………….21

United States v. Fuller, 387 F.3d 643
(7th Cir. 2004)……………………………………20

United States v. Jeffries, 692 F.3d 473
(6th Cir. 2012)…………..……………..………...20

United States v. Mabie, 663 F.3d 322
(8th Cir. 2011)…………………………..……….20

United States v. Nishnianidze, 342 F.3d 6
(3d Cir. 2003)……………………………………..20

United States v. Saunders, 166 F.3d 907
(7th Cir. 1999)…………………………………….21

United States v. White, 670 F.3d 498
(4th Cir. 2012)……………………………………21
State Court Cases

People v. Bona, 2018 IL App (2d)

160581.………..…………………………….passim

ix

STATUTES AND RULES
28 U.S.C. Sec. 1257………..………….................1
720 ILCS 5/12-9(a)…………………………passim
U.S. Sup. Ct. Rule 10(c)……………..…..……..10

1

OPINION BELOW
The opinion of the Illinois Appellate Court
for the Second District is cited as People v. Bona,
2018 IL App (2d) 160581.
JURISDICTION
The Illinois Supreme Court denied
Stephen Bona’s petition for leave to appeal on
March 25, 2020. This court has jurisdiction
under 28 U.S.C. Sec. 1257.

CONSTITUTIONAL PROVISIONS
INVOLVED
United States Constitution, amend. I:
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of
speech, or of the press; or the right of the people
peaceably to assemble, and to petition the
Government for a redress of grievances.

2

United States Constitution, amend. XIV:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the State
wherein they reside. No State shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any State deprive any person of
life, liberty, or property, without due process of
law; nor deny to any person within its
jurisdiction the equal protection of the laws.

3

STATEMENT OF THE CASE
Stephen Bona was charged under 720
ILCS 5/12-9(a), which states, in pertinent part:
“A person commits threatening a
public official *** when:
(1) that person knowingly delivers
or conveys, directly or indirectly, to a
public official
*** by any means a communication:
(i) containing a threat that would
place the public official *** in
reasonable
apprehension
of
immediate or future bodily harm ***
and
(2) the threat was conveyed ***
because of hostility of the person
making the threat toward the status
or position of the public official or ***
or because of any other factor related
to the official's public existence.”
In the Illinois circuit court, Stephen Bona
filed two successive motions to declare section
5/12-9(a) unconstitutional as violative of the first
amendment, which were both denied.
The case proceeded to a jury trial. The

4

facts, in pertinent part, are as follows.
The crux of the prosecution case involved
a voicemail message which Stephen Bona left on
the voicemail of Illinois State Representative
Jeanne Ives’s district office in Wheaton (S.R.
423).
Although no transcript of the message was
prepared, the message might be transcribed as
follows: “Your Tea party brethren Sara Palin put
up a map that included the names, locations
faces, of Democratic candidates and put them in
the cross-hairs of a gun. Perhaps we should do
the same for you. We know where you live. There
is no longer an assaults weapons ban. Perhaps
you should think about that before you speak the
next time you speak, you stupid fucking bitch.”
(S.R. 425-26) (People’s Exhibit 1).
Both parties acknowledged that there was
another voicemail that was from a call placed
immediately before the voicemail recorded in
People’s Exhibit 1. (S.R. 427).
Stephen Bona testified in his own defense
and explained the origin of the voicemails, the
content of the first voice mail, and his intent in
leaving both voicemails.

5

In the nineties, Bona met a person named
Michael Bradley. Beginning in 1992, he was in a
committed relationship with Bradley. (S.R. 532).
He entered into a civil union with Bradley in
June of 2011. (S.R. 532-33). On November 26,
2013, following the supreme court ruling, he
became legally married to Michael Bradley in
California. (S.R. 533).
Stephen Bona testified that these
messages were left as a political protest about
statements made by Jeanne Ives, which included
her
statements
that
(1)
homosexual
relationships were “disordered,” (S.R. 472-74,
537-38), (2) homosexuals wanted children as
“objects of desire,” (S.R. 472-74, 537-38) (3)
homosexuals were “weaseling their way” into
respectability, (S.R. 472-74, 537-38) (4) Michael
Madigan was a “tyrant” who was proposing
inadequate concealed carry legislation, (S.R.
542-46), (5) the purpose of the second
amendment was to make the people stronger
than the government and to prevent tyranny,
(S.R. 542-46), and (6) it was time for a
“revolution” against Madigan. (S.R. 542-46)
.
In response, Stephen Bona typed a
statement
on
his
laptop,
called

6

Representative Ives’s number, and read his
document from the laptop. (S.R. 551-53). In this
message, Bona described his life with his
husband,
their
background,
and
their
contributions to the community. (S.R. 554-55).
He also described his belief that Ives’s comments
about homosexuals were offensive. (S.R. 556). He
urged her, as a Christian, to repent. (S.R. 557).
Bona went on to say in the message that he was
concerned about Ives’s comments about
concealed carry, which he thought were naive
and reckless and could put innocent people in an
unnecessary danger. (S.R. 558). He was
concerned about how Ives was targeting Speaker
Madigan and referring to him as a tyrant. (S.R.
558-59). He said that this was a dangerous
approach to take. He started to do that, his
phone was beeping and then it went dead
altogether. (S,R. 559).
Bona several times tried to get his phone to
reactivate and finally got a dial tone again. (S.R
559). Eventually, he got through, and the
recorded message on State’s Exhibit One was the
message he left. (S.R. 559-60).
Bona explained that his reference to the
Sarah Palin website was to a website Sarah
Palin had put up a couple of years before. In that

7

website, there were crosshairs linked to specific
Democratic House representatives in various
parts of the country. (S.R. 560-61). The website
had caused “quite a controversy,” particularly
because she claimed that the crosshairs were
just surveyor’s marks. The bulls-eyes on Sarah
Palin’s website were centered on the geographic
area of the representatives’ districts, all across
the United States, not their actual physical
addresses. (S.R. 561).
Bona acknowledged that the final, profane
statement in the typed out message was not part
of the actual typed out statement. (S.R. 561-62).
Bona testified that he did not intend the
message, including both the first and second
parts, as the communication of a threat to
commit an act of bodily harm to Jeanne Ives.
(S.R. 562-63). He did not intend it as the
communication of a threat to commit property
damage to Jeanne Ives. He did not intend it as a
communication of a threat to commit property
damage to Jeanne Ives. (S.R. 563).
Bona testified that when he said “perhaps
we should do the same thing to you,” he was
using a “hypothetical example,” and just
“creating an illustration.” (S.R. 563). He did not
mean that he or somebody else was actually

8

going to go and Ives some sort of physical harm.
(S.R. 563-64).
Bona explained that his statement that
there was no longer a ban on assault weapons
was a reference back to the concealed carry
legislation: “If we're going to walk around with
guns in our pockets and just about anybody as
long as they pass a background check can carry
one around, we have assault weapons -- we have
an assault weapons ban that has been allowed to
elapse and no one will do anything about it.”
(S.R. 564).
A jury convicted Stephen S. Bona, and he
was sentenced to probation.
The Illinois appellate court affirmed the
conviction, and rejected the argument that
section 5/12-9(a) violated the First Amendment.
(App. 30).

9

REASONS FOR GRANTING THE
PETITION
I.
THIS COURT SHOULD GRANT THE
PETITION TO DETERMINE WHETHER THIS
COURT’S DECISION IN VIRGINIA V. BLACK,
THAT THE FIRST AMENDMENT ALLOWS A
STATE TO CRIMINALIZE A “TRUE THREAT”
ONLY IF THE SPEAKER SUBJECTIVELY
INTENDS SERIOUS HARM, HAS BEEN
MODIFIED BY THIS COURT’S DECISION IN
ELONIS V. UNITED STATES TO ALLOW A
TRUE
THREAT
BASED
UPON
THE
SPEAKER’S
KNOWLEDGE
THAT
HIS
STATEMENTS
WOULD
CAUSE
APPREHENSION TO A REASONABLE
LISTENER
.
This Court should grant the petition to
consider the question of whether, consistent with
the First Amendment, a state may criminalize
political speech which the speaker does not
subjectively intend as a threat but which the

10

speaker knows may be viewed as threatening.
This is a question which the court below decided
in a way decided this question in way which
“conflicts with relevant decisions of this Court.”
U.S. Sup. Ct. R. 10 (c). Moreover, since the
Illinois Supreme Court adheres to the same rule,
and the Ninth Circuit rejects it, this case also
involves a conflict between a state court of last
resort and a federal court of appeals.
Stephen Bona was convicted under 720
ILCS 5/12-9(a), which states, in pertinent part:
“A person commits threatening a public
official *** when:
(1) that person knowingly delivers or
conveys, directly or indirectly, to a public official
*** by any means a communication:
(i) containing a threat that would place the
public official *** in reasonable apprehension of
immediate or future bodily harm ***
and
(2) the threat was conveyed *** because
of hostility of the person making the threat
toward the status or position of the public official
or *** or because of any other factor related to
the official's public existence.”
Since the “threatening a public official

11

statute” statute is a content-based restriction on
speech which is not limited to “true threats” it
violates the First Amendment to the United
States Constitution under the relevant decisions
of this Court. Stephen Bona’s conviction must
therefore be reversed.
To understand why this is true, it is
necessary to review the general principles of first
amendment jurisprudence, “true threats,”
speech integrally related to criminal conduct,
and overbreadth.
The First Amendment, which applies to
the states through the fourteenth amendment,
precludes the enactment of laws “abridging the
freedom of speech.” U.S. Const., amends. I, XIV.
Under this amendment, a government “has no
power to restrict expression because of its
message, its ideas, its subject matter, or its
content.” (Internal quotation marks omitted.)
Ashcroft v. American Civil Liberties Union, 535
U.S. 564, 573 (2002). Therefore, “[t]he
Constitution gives significant protection from
overbroad laws that chill speech within the First
Amendment's vast and privileged sphere.”
Ashcroft, 535 U.S. at 244.
Content-based laws, which target speech

12

based on its communicative content, are
presumed to be invalid. United States v.
Stevens, 559 U.S. 460, 468 (2010). In
addition to restrictions that are facially content
based, the United States Supreme Court has
“recognized a separate and additional category
of laws that, though facially content neutral, will
be considered content- based regulations of
speech” because they “cannot be ‘ “justified
without reference to the content of the regulated
speech.” ’ ” Reed v. Town of Gilbert, 576 U.S. ––
––, ––––, 135 S.Ct. 2218, 2227 (2015) (quoting
Ward v. Rock Against Racism, 491 U.S. 781, 791
(1989), quoting Clark v. Community for Creative
Non–Violence, 468 U.S. 288, 293 (1984)).
However, this Court has recognized that certain
“historic and traditional”
categories
of
expression
do
not
fall
within
the
protections of the first amendment, and
content-based restrictions with regard to those
recognized categories of speech have been
upheld. (Internal quotation marks omitted.)
United States v. Alvarez, 567 U.S. 709, 717
(2012).
Those accepted categories of unprotected
speech include true threats (see Watts v. United
States, 394 U.S. 705, (1969) (per curiam)) and
speech integral to criminal conduct (see Giboney

13

v. Empire Storage & Ice Co., 336 U.S. 490
(1949)).
Section 5/12-9(a) is a content-based
restriction. By its terms it applies to
“communications” which have a specific content.
It criminalizes the content of the speech that
would unintentionally cause a reasonable person
to be placed in apprehension of immediate or
future harm. Because this restriction cannot be
justified without reference to the content of the
prohibited communications, it is content based.
See Reed, 576 U.S. at – –––, 135 S.Ct. at 2227;
see also Matal v. Tam, 582 U.S. ––––, ––––, 137
S.Ct. 1744, 1764–65 (2017) (plurality opinion)
(holding that the “disparagement clause,” which
prohibits federal registration of a trademark
based on its offensive content, violates the first
amendment).
Under statute, communications to public
officials which are pleasing to the public officials
are not prohibited, while communications which,
based upon their content, the speaker knows
would be viewed as “threats” by reasonable
listeners are prohibited.
But section 5/12-9(a) is more than a
content-based restriction. It is also a restriction

14

upon “core” political speech. By its terms, section
5/12-9(a) applies only to speech which is
motivated by hostility towards a public official’s
“status or position” or “because of any other
factor related to the official's public existence.”
“Any other factor” would include, as in this
instance, disagreement with a public official’s
votes, speeches, political views, or official
actions.
Restrictions upon “core political speech”
strike at the heart of the first amendment and
can only be justified after “strict” or “exacting”
scrutiny. See Citizens United v. Fed. Election
Comm'n, 558 U.S. 310, 339–40 (2010)(striking
down restriction upon corporate funding of
documentary critical of Hillary Clinton);
McIntyre v. Ohio Elections Comm'n, 514 U.S.
334, 346 (1995)(striking down restriction upon
anonymous pamphlet distributed during school
tax referendum); McCutcheon v. Fed. Election
Comm'n, 134 S. Ct. 1434, 1446 (2014)(striking
down aggregate limits upon campaign
donations).
As this Court has explained:
“Speech
is
an
essential
mechanism of democracy, for it is the

15

means to hold officials accountable to
the people. See Buckley, supra, at
14–15, 96 S.Ct. 612 (“In a republic
where the people are sovereign, the
ability of the citizenry to make
informed choices among candidates
for office is essential”). The right of
citizens to inquire, to hear, to speak,
and to use information to reach
consensus is a precondition to
enlightened self-government and a
necessary means to protect it.”

Citizens United, 558 U.S. at 339.
Moreover,
“Discussion of public issues and
debate on the qualifications of
candidates are integral to the
operation
of
the
system
of
government established by our
Constitution. The First Amendment
affords the broadest protection to
such political expression in order ‘to
assure [the] unfettered interchange
of ideas for the bringing about of
political and social changes desired
by the people.’ Roth v. United States,

16

354 U.S. 476, 484 [77 S.Ct. 1304,
1308, 1 L.Ed.2d 1498
(1957).
Although
First
Amendment
protections are not confined to ‘the
exposition of ideas,’ Winters v. New
York, 333 U.S. 507, 510 [68 S.Ct. 665,
667, 92 L.Ed. 840] (1948), ‘there is
practically universal agreement that
a major purpose of that Amendment
was
to
protect
the
free
discussion
of
governmental
affairs…”

McIntyre, 514 U.S. at 346.
Since Section 5/12-9(a) is a content based
restriction which burdens political speech, it
“must prevail against laws that would suppress
it, whether by design or inadvertence. Laws that
burden political speech are ‘subject to strict
scrutiny,’ which requires the Government to
prove that the restriction ‘furthers a compelling
interest and is narrowly tailored to achieve that
interest.’ Citizens United, 558 U.S. at 340,
quoting Fed. Election Comm'n v. Wisconsin
Right To Life, Inc., 551 U.S. 449, 464
(2007)(opinion per Roberts, C.J.).
Here the State certainly has a compelling

17

interest in ensuring that public officials are not
threatened or intimidated. But section 5/2-9(a) is
not narrowly tailored to serve that interest.
Because it does not require that the speaker
intend his statements to inflict emotional
suffering on the public official or place the public
official in fear of bodily harm or death, but only
that a reasonable public official “would” feel
apprehension, it includes within its ambit
communications, which, while objectionable, are
intended as hyperbole, satire, or political
expression, rather than as “true” threats.
Moreover, since the legislation places speech
which is not intended to cause distress on the
same plane as speech which is intended to cause
distress, it has a chilling effect on legitimate
expression, and is not narrowly tailored to deter
meaningful threats.
This danger is illustrated in this case
where Stephen Bona’s communication, while
poorly worded, was ambiguous and hypothetical
and he testified that he did not intend his
statements to inflict emotional suffering on
Jeannie Ives or to place her in fear of bodily
harm or death. Bona testified, without rebuttal,
that he did not intend to inflict emotional
suffering or threaten bodily harm or death. His
testimony was corroborated by analysis of

18

People’s Exhibit 1 which shows that it is at worst
a conditional “threat” to create an offensive
website and not a true threat intended to create
a “reasonable apprehension of immediate or
future bodily harm.” His testimony is also
corroborated by the larger context, which shows
that the preserved portion of Bona’s statement,
to Ives, People’s Exhibit 1, was part of a longer
prepared statement which was intended as a
statement of political opinion and not as a
threat.
Therefore, section 5/12-9(a) conflicts with
relevant decisions of this Court and the petition
for certiorari should be granted.
The Illinois court below, however, declined
to analyze section 5/12-9(a) as a content based
restriction on political speech, because it held
that the section only penalized “true threats.”
The court’s decision conflicts with pertinent
decisions of this Court, as well as a decision of
the Ninth Circuit which has never been reversed
or overruled.
With regard to the exception for true
threats, this Court originally held that a
communication qualifies as a true threat only if
it contains a “serious expression of an intent to

19

commit an act of unlawful violence.” Virginia v.
Black, 538 U.S. 343, 359 (2003); see also Watts
v. United States, 394 U.S. 705, 707–08
(1969)(statement of defendant that he would
refuse induction into armed forces and ‘if they
ever make me carry a rifle the first man I want
in my sights is L.B.J.’ was political hyperbole
that did not amount to a “true threat” against
the life of the President of the United States).
Section 5/12-9(a), although it contain the
term “threat” does not limit threats to “true
threats” in the sense of threats which contain a
serious expression of an intent to commit an act
of unlawful violence.
Following Black, there was a significant
split in the federal circuit courts of appeal as to
whether a state could criminalize as “true
threats” statements that reasonable listeners
would view as threatening, but that the speaker
did not intend as intimidation.
In United States v. Cassel, 408 F.3d 622,
632–33 (9th Cir. 2009), the Ninth Circuit
interpreted Black as requiring “proof that the
speaker subjectively intended the speech as a
threat.” Alternatively, at least eight other
circuits adopted or reaffirmed some form of an

20

objective “reasonable person” standard as
sufficient to prove the intent to threaten and,
thus, a “true threat.” United States v.
Nishnianidze, 342 F.3d 6, 15 (3d Cir. 2003) (“A
true threat is one that a reasonable recipient
familiar with the context of the communication
would find threatening.”); United States v.
Fuller, 387 F.3d 643, 646 (7th Cir. 2004)
(adopting an objective standard whereby a
communication is a “true threat” if a reasonable
person would foresee that the communication
would be interpreted by the target as a threat);
Porter v. Ascension Parish School Board, 393
F.3d 608, 616 (5th Cir. 2004) (“true threat”
occurs if an objectively reasonable person would
interpret the speech as an expression of intent to
harm, and “protected status of the threatening
speech is not determined by whether the speaker
had the subjective intent to carry out the
threat”); United States v. Mabie, 663 F.3d 322,
332 (8th Cir. 2011) (stating that “Black Court did
not hold that the speaker’s subjective intent to
intimidate or threaten is required” and
reaffirming an objective test from the
perspective of a reasonable recipient); United
States v. Jeffries, 692 F.3d 473, 480 (6th Cir.
2012)
(“The
reasonable-person
standard
winnows out protected speech because, instead
of ignoring context, it forces jurors to examine

21

the circumstances in which a statement is made
***.”); United States v. White, 670 F.3d 498, 50708 (4th Cir. 2012).
Even among the circuits that employed an
objective reasonable-person standard, division
remained as to whether it should be applied from
the vantage point of the speaker or the listener.
United States v. Clemens, 738 F.3d 1, 10-11 (1st
Cir. 2013) (discussing the disagreements among
the courts of appeals and concluding that the
objective-speaker test continued to be good law
post-Black); accord United States v. Saunders,
166 F.3d 907, 913 n.6 (7th Cir. 1999).
This Court shed light upon, but did not
finally resolve, this conflict when it decided the
landmark case of Elonis v. United States, 575
U.S. , 135 S. Ct. 2001 (2015). In Elonis the Court
analyzed 18 U.S.C. § 875(c) (2006), which made
it a crime to communicate a threat in interstate
commerce. Elonis, 575 U.S. at _, 135 S. Ct. at
2004. The defendant was charged with using
Facebook posts to threaten coworkers, his soonto-be ex-wife, state and local police, a
kindergarten class, and an FBI agent. Elonis,
575 U.S. at _, 135 S. Ct. at 2005-07. The jury
convicted the defendant under instructions
providing that he could be found guilty if he
communicated what a reasonable person, not the

22

actual defendant, regarded as a threat. Elonis,
575 U.S. at , 135 S. Ct. at 2004. The question for
the Court was whether section 875(c) also
required the defendant to be aware of the
threatening nature of the communication and, if
not, whether the first amendment required such
a showing. Elonis, 575 U.S. at _, 135 S. Ct. at
2004.
Section 875(c) was silent as to the required
mental state. Elonis, 575 U.S. at
, 135 S.
Ct. at 2008-09. The Court explained that the
lack of a specified mental state did not mean that
none existed: “We therefore generally ‘interpret[
] criminal statutes to include broadly applicable
scienter requirements, even where the statute
by its terms does not contain them.’ ” Elonis, 575
U.S. at _, 135 S. Ct. at 2009 (quoting United
States v. X-Citement Video, Inc., 513 U.S. 64, 70
(1994)). In deciding which mental state a statute
requires, the Court generally imposes the
mental state that separates wrongful conduct
from legally innocent conduct. Elonis, 575 U.S.
at _, 135 S. Ct. at 2010. In Elonis, the mental
state needed not only to separate wrongful
conduct from innocent activity but also to satisfy
the constitutional threshold of being a “true
threat.” See Elonis, 575 U.S. at
, 135 S.
Ct. at 2004-07.

23

The parties agreed that the defendant
must have known at least that he was
transmitting a communication, but the Court
noted that “communicating something is not
what makes the conduct ‘wrongful.’ ” (Emphasis
in original.) Elonis, 575 U.S. at _, 135 S. Ct. at
2011. The crucial element that made the conduct
wrongful was the threatening nature of the
communication. Elonis, 575 U.S. at _, 135 S.
Ct. at 2011. If criminal liability were to depend
on whether a reasonable person perceived the
communication as a threat, regardless of what
the defendant had in mind, then the mental
state for the crucial element would be
negligence, which the Court had long been
reluctant to infer. Elonis, 575 U.S. at
,
135 S. Ct. at 2011.
Rejecting the government’s argument for a
negligence standard, this Court reached back
to Hamling v. United States, 418 U.S. 87 (1974),
where the defendants were convicted under a
statute that forbade the mailing of obscene
materials. Elonis, 575 U.S. at _, 135 S. Ct. at
2011-12. In Hamling, the Court held that
criminal liability could be found if “ ‘a defendant
had knowledge of the contents of the materials
he distributed, and *** knew the character and
nature of the materials.’ ” Elonis, 575 U.S. at _,

24

135 S. Ct. at 2012 (quoting Hamling, 418 U.S. at
123). A defendant would know the character
of the materials if he knew that they were not
innocent but a “ ‘calculated purveyance of filth.’
” (Emphasis omitted.) Elonis, 575 U.S. at ,
135 S. Ct. at 2012 (quoting Hamling, 418 U.S. at
122). In Elonis, the “calculated purveyance” of
a threat would require that the defendant knew
the character of the communication as
threatening. Elonis, 575 U.S. at , 135 S. Ct. at
2012. Consequently, the Court held that the
statute’s mental-state requirement would be
satisfied if the defendant transmitted a
communication “for the purpose of issuing a
threat,
or
with
knowledge
that
the
communication will be viewed as a threat.”
Elonis, 575 U.S. at
, 135 S. Ct. at 2012.3
The Illinois court below viewed Elonis as
“consistent” with the Ninth Circuit’s specific
intent interpretation of Black, but also viewed
Elonis as providing a “second path” to proving a
true threat – “knowledge of the character of the
communication.”
This interpretation of this Court’s decision
in Elonis raises a serious question as to whether
the Black standard for true threats has now been
superseded.
And
the
Illinois
court’s
interpretation of Elonis is questionable: on its

25

face Elonis held only that, as a matter of
statutory interpretation, any federal criminal
statute requires a mens rea higher than
negligence, not that a “knowing” standard was
sufficient for true threats under the First
Amendment.
Any other standard but the Black
standard, particularly in the context of political
speech, would require the speaker to tailor his
words to the unknown sensitivities of his
prospective audience, and would chill the use of
easily misunderstood satire, hyperbole, or
exaggeration.
Therefore, this Court should grant the
petition for writ of certiorari

26

CONCLUSION
For the foregoing reasons, the petition for
writ of certiorari should be granted.

Respectfully
submitted,
STEPHEN S. BONA
By:
/s/ Stephen L. Richards
Stephen L. Richards *
Joshua S.M. Richards
53 West Jackson, Suite 756
Chicago, IL 60604
Sricha5461@aol.com
Attorneys for the Petitioner Stephen S. Bona
* Counsel of Record

1

TABLE OF CONTENTS OF APPENDIX
APPENDIX A (Disposition of the Illinois
Supreme Court denying the petition for leave to
appeal)
…………………………………..……………………2
APPENDIX B (Opinion of the Illinois
Court of Appeals)……………………...…………..3
APPENDIX F (Oral Ruling of the Circuit
Court of Cook County – Criminal Division)
……………………………..……………………….30

2

APPENDIX A
ILLINOIS SUPREME COURT
________________
No. 12432
PEOPLE OF THE STATE OF ILLINOIS,
PLAINTIFF-RESPONDENT
v.
STEPHEN S. BONA,
DEFENDANT-PETITIONER
______________
[March 25. 2020]
______________
Disposition: Petition for leave to appeal
denied.

3

APPENDIX B
IN THE APPELLATE COURT OF ILLINOIS
SECOND DISTRICT
________________
No. 2–16–0581
PEOPLE OF THE STATE OF ILLINOIS,
PLAINTIFF-APPELLANT
v.
STEPHEN S. BONA, DEFENDANTAPPELLEE
______________
[December 10, 2018]
________________
OPINION
¶ 1 Following a jury trial in the circuit court of
Du Page County, defendant, Stephen S. Bona,
was convicted of two counts of threatening a
public official, in violation of section 12-9 of the
Criminal Code of 2012 (Code) (720 ILCS 5/129(a) (West 2012)). Defendant appeals his
conviction, challenging (1) whether the statute is

4

constitutional, (2) the sufficiency of the evidence
presented against him, (3) the admissibility of
certain evidence, and (4) allegedly improper
comments during closing argument. We affirm.
¶2

I. BACKGROUND

¶ 3 At defendant’s trial, Kathleen Murphy, a
legislative assistant to State Representative
Jeanne Ives, testified that on the morning of
March 22, 2013, she was listening to voicemails
that came into Ives’s office over the previous two
days. One of the calls was from a man who
“sounded like somebody was reading from a
script.” Murphy testified that the man compared
himself and his partner and the good things they
had done to Representative Ives and her
husband and how “awful” they were. Murphy
stated that the man called Representative Ives
the “C-word.” Murphy said that she deleted the
voicemail due to its offensive nature, as was her
standard practice. The next voicemail in
succession sounded like it was from the same
person. That voicemail was preserved and
played for the jury:
“Your Tea Party brethren, Sara[h] Palin, put up
a map that included the names, locations, faces
of Democratic candidates, and put them in the
cross-hairs of a gun. Perhaps we should do the

5

same for you. We know where you live. There is
no longer an assault weapons ban. Perhaps you
should think about that before you speak the
next time, you stupid fucking bitch.”
¶ 4 Murphy testified that she had been trained
to contact the police in situations that created
uncertainty or worry in her mind. She phoned
the police to report the second voicemail, and
then notified Representative Ives.
¶ 5 Officer Robert Krolikowski testified that he
was a 23-year veteran of the Wheaton Police
Department. On the morning of March 22, 2013,
he responded to the call from Representative
Ives’s office. He spoke with Murphy, who
expressed concern about the contents of the
voicemail. Officer Krolikowski listened to the
voicemail and made a recording of the call. He
noted in his report that the previous voicemail
was from a similar-sounding person and that
Murphy did not characterize the first voicemail
as threatening. Krolikowski later alerted his
superiors about the case. He turned over the
recording and the information he had gathered
to the investigation division.
¶ 6 Representative Ives testified. She began her
term as the state representative for the 42nd
District in January 2013. On February 25, 2013,

6

she appeared on a Catholic radio program called
Marriage Monday that airs in the Chicago area.
A recording of the radio interview was played for
the jury. Among other topics, Representative
Ives discussed the then-pending gay- marriage
bill, to which she expressed her opposition:
“They are trying to redefine marriage.
completely disordered relationship.

It’s a

And when you have a disordered relationship,
you don’t ever get order out of that.
***
They’re not just trying to redefine marriage;
they’re trying to redefine society. They’re trying
to weasel their way into acceptability so they can
then start to push their agenda down into the
schools because this gives them some sort of
legitimacy.
***
To not have a mother and a father is really a
disordered state for a child to grow up in, and it
really makes that child an object of desire rather
than the result of a matrimony [sic].”
Representative Ives testified that she received
both positive and negative feedback about her
comments. Regarding the negative feedback, she

7

testified: “I was getting hate mail, e-mails, phone
calls, I had to shut down my Facebook page, just
nasty words, nasty statements over the one
minute in the radio program where I spoke about
[gay marriage].”
¶ 7 According to Representative Ives, on the
morning of March 22, 2013, she was in
Springfield when she received a call from
Murphy. Murphy informed Representative Ives
of the voicemail that had prompted her to call
the police. Representative Ives listened to the
voicemail and described how she felt at the time:
“I felt threatened and I was frightened. I was—I
am sitting in Springfield. My kids are at school.
They walk home from school. This person, who I
do not know, says he knows where I live and
there is no longer an assault weapons ban and I
better watch what I say. I mean, it is very
frightening to know that somebody is targeting
your home where your children live and I was
afraid. I was just—it was—I—all I could do was
make sure my kids were safe and worry about
them. It was—I was afraid.”
¶ 8 Officer Jason Scott testified that he was
assigned to work the case after Officer
Krolikowski’s initial contact and report. He
contacted
defendant
using
the
caller

8

identification information Officer Krolikowski
had collected at Representative Ives’s office.
Defendant confirmed that he had left a message
for Representative Ives, but he denied making
any threats. Defendant agreed to meet with
Officer Scott at the Wheaton Police Department
later
that evening. At the police station,
defendant explained that he had left two
messages. He told Officer Scott that he first
collected his thoughts on a computer and then
called Representative Ives’s number. He
intended to leave only one message but was cut
off from the system during his dictation. This
necessitated the second call and message. He
claimed that, during the calls, he indicated that
he thought that Representative Ives’s views
were flawed and that she should repent as a
Christian. Defendant explained his comment
about knowing where Representative Ives lived
as meaning that he knew only generally where
she lived, based on a map posted on the Internet,
but did not know her actual address. Officer
Scott played the recording of the message for
defendant, who confirmed that it was his voice
on the recording. Officer Scott placed defendant
under arrest at that time.
¶ 9 Defendant testified that he met his husband,
Michael Bradley, on New Year’s Eve, 1991. They

9

committed to each other as a couple shortly
thereafter and had been together ever since. In
June 2011, they entered into a civil union in
Kane County on the same day that civil unions
became legal in Illinois. They married in
November 2013, following the United States
Supreme Court decision that legalized gay
marriage nationwide.
See Obergefell v.
Hodges, 576 U.S. 135 S. Ct. 2584, 2604-05
(2015).
¶ 10 Defendant testified that in March 2013 he
was acutely aware of the public debate and the
pending gay-marriage bill in the Illinois
legislature. He kept abreast of the status of the
bill by subscribing to certain news groups.
During that period, he received an e-mail from
one of the news groups directing him to an article
in the Huffington Post. The article highlighted
Representative Ives’s comments from the radio
interview and included a hyperlink to excerpted
recordings of the interview. Defendant listened
to the excerpts and then went to the radio
station’s website to listen to the entire interview.
He testified that he felt offended by the
comments. He characterized the “disordered”
comment as a “dog whistle” that harkened back
to a time when gay people were classified as
mentally ill and put into hospitals. He said that

10

the term “weasel” was insulting because it
implied that gay people were “distrustful and
unworthy” vermin. Defendant testified that he
was most insulted by the comment that a child
was an “object of desire” in a gay marriage.
¶ 11 Defendant testified that he never intended
to harm or frighten Representative Ives. After
hearing her comments, he conducted further
research. He found an op-ed written by
Representative Ives in the Chicago Tribune
where she expressed displeasure with House
Speaker Michael Madigan over the legislative
process involving a concealed-carry bill. He
located a second article in which Representative
Ives wrote that she believed that “Second
Amendment rights are a defense against
tyranny.” Defendant testified that he disagreed
with her views on gun control and did not think
that they were supported by the text of the
second amendment or historical documents. He
said that he let the information “sit for a day or
two” before he decided to call her and let her
know what he thought.
¶ 12 On the evening of Wednesday, March 20,
2013, he organized his thoughts by typing them
into a Microsoft Word document on his laptop.
Once he was satisfied with the precise wording,
he called Representative Ives’s office, reached

11

her voicemail system, and read the document
word-for-word. Defendant testified that he
talked about his 21-year relationship with
Bradley and how they had been responsible
citizens who paid more than their fair share of
taxes. They cared for an elderly neighbor and
helped other neighbors who were facing
foreclosure. He said that he and Bradley had
raised four German shepherds and rescued one
abandoned cat. He testified that he made
mention of the hatred that he and Bradley had
faced as a couple, including from his own family.
He said that he told Representative Ives that her
comments on homosexual relationships were
offensive and based in hate and ignorance. He
said that he assumed that she was a Christian,
because she was from Wheaton, and that there
was nothing in Christ’s teachings that supported
her hateful speech about gay people. He said
that he referenced Bill Gates’s views on gay
marriage. Regarding her comments on the
pending concealed-carry bill and Speaker
Madigan, he said that the comments were naïve
and could put innocent people in danger. He said
that he mentioned that he was concerned that
she was targeting Speaker Madigan as a tyrant.
He testified that he had started to talk about
Sarah Palin’s website when his phone began
beeping and then went dead. A few minutes

12

later, he called back and left the second message,
which was preserved. He testified that he had no
recollection of using profanity during the first
call and that the “C-word” “is not one that comes
out of my mouth.” He testified that he did not
save or print the document from which he
dictated his messages.
¶ 13 The jury found defendant guilty of two
counts of threatening a public official, a Class 3
felony, in violation of section 12-9 of the Code.
720 ILCS 5/12-9(a), (c) (West 2012). The trial
court denied defendant’s motion for judgment
notwithstanding the verdict. It sentenced
defendant to probation for a term of two years.
Defendant timely appealed.

¶ 14 II. ANALYSIS
¶ 15 Defendant raises four contentions in his
appeal: (1) section 12-9 of the Code violates the
first amendment to the United States
Constitution (U.S. Const., amend. I) and the
free-speech provision of the Illinois Constitution
(Ill. Const. 1970, art. I, § 4), (2) the State failed
to prove beyond a reasonable doubt that
defendant violated section 12-9, (3) the trial
court erred by permitting Representative Ives to

13

testify that she perceived the communication as
a threat, and
(4) the prosecutor’s improper remarks during
closing argument deprived defendant of a fair
trial.
¶ 16 A. Constitutional Arguments
¶ 17 We start by considering defendant’s
argument that section 12-9 of the Code is
unconstitutional because it violates the first
amendment to the United States Constitution
and the free-speech provision of the Illinois
Constitution.1
“Statutes are presumed to be
constitutional, and ‘[t]o overcome this presump1 We recognize that our supreme court has
directed us to decide cases on nonconstitutional
grounds whenever possible and to reach
constitutional issues only as a last resort. In re
E.H., 224 Ill. 2d 172, 178 (2006). Here, we
examined each of defendant’s nonconstitutional
issues first, but we were unable to resolve the
case without reaching the constitutional issue.
We present the issue involving the constitutional
question first for clarity and because it is the
premise for our resolution of defendant’s
contentions regarding sufficiency of the
evidence.

14

Ion and ‘[t]o overcome this presumption, the
party challenging the statute must clearly
establish that it violates the constitution.’ ”
People v. Plank, 2018 IL 122202, ¶ 10 (quoting
People v. Rizzo, 2016 IL 118599, ¶ 23). Whether
a statute violates the constitution is a question
of law, which we review de novo. Plank, 2018
IL 122202, ¶ 10.
¶ 18 1. Free-Speech Provision of the Illinois
Constitution
¶ 19 Although defendant asserts that section 129 violates the free-speech provision of the Illinois
Constitution, his subsequent analyses focus
solely on why he feels that section 12-9 violates
the first amendment to the United States
Constitution. He offers no argument and cites no
authority as to why section 12-9 is
unconstitutional under the Illinois Constitution.
Thus, he has forfeited review of his claim with
respect to the Illinois Constitution. People v.
Macias, 2015 IL App (1st) 132039, ¶ 88
(argument forfeited when the defendant failed to
comply with Illinois Supreme Court Rule
341(h)(7) (eff. July 1, 2018), which requires that
arguments contain cogent legal argument and
citations to relevant authority); see also People
v. Hale, 2013 IL 113140, ¶ 15 n.4 (review was
confined to federal constitutional issue when no

15

argument was made of a concomitant right
under the Illinois Constitution).
¶ 20 First Amendment to the United States
Constitution
¶ 21 Defendant was convicted under section 129 of the Code, which states in relevant part: “(a)
A person commits threatening a public official
*** when:
(1) that person knowingly delivers or conveys,
directly or indirectly, to a public official *** by
any means a communication:
(i)
containing
a
threat
that
would
place the public official in reasonable
apprehension of immediate or future bodily
harm, ***
(2) the threat was conveyed because of the
performance or nonperformance of some public
duty, *** or because of any other factor related
to the official’s public existence.” 720 ILCS 5/129(a) (West 2012)
¶ 22 Defendant argues that section 12-9 is a
content-based restriction on speech that is
subject to strict scrutiny and is overbroad
because it is not limited to “true threats.” See
Watts v. United States, 394 U.S. 705, 708 (1969).

16

Moreover, he asserts, section 12-9 is not limited
to “speech integrally related to criminal
conduct.” For all these reasons, defendant
argues, section 12-9 is unconstitutional and thus
void ab initio. The State responds that section
12-9, when accompanied with proper jury
instructions, satisfies the “true threat”
requirement and therefore is limited to speech
outside the protections of the first amendment.
¶ 23 The first amendment commands that
“Congress shall make no law *** abridging the
freedom of speech.” U.S. Const., amend. I. The
due process clause of the fourteenth amendment
imposes that same prohibition upon the states.
Gitlow v. People of New York, 268 U.S. 652, 666
(1925). Not all speech, however, falls under the
protection of the first amendment. Chaplinsky v.
New Hampshire, 315 U.S. 568, 571 (1942).
Congress and the states may proscribe certain
well-defined, limited classes of speech that are
not
constitutionally
protected,
including
obscenity, profanity, libel, fighting words, and
speech integral to criminal conduct. Chaplinsky,
315 U.S. at 571-72; Giboney v. Empire Storage &
Ice Co., 336 U.S. 490, 498 (1949). Another class
of unprotected speech is threats, so long as they
are “true threats” and not mere political

17

Watts, 394 U.S. at 707-08; see also
Virginia v. Black, 538 U.S. 343, 359 (2003).
hyperbole.

¶ 24 In Black, the United States Supreme Court
considered a Virginia statute banning crossburning done with the intent to intimidate.
Black, 538 U.S. at 347. The statute included a
provision that any cross-burning was prima facie
evidence of the intent to intimidate. Black, 538
U.S. at 347-48. The question the Court faced was
whether the statute required a “true threat,”
which would position it as a proscription on a
class of speech not protected by the first
amendment. See Black, 538 U.S. at 358-60. The
Court held that Virginia was within its rights to
ban cross-burning intended to intimidate but
that it could not do so where all cross-burning
was prima facie evidence of intent. Black, 538
U.S. at 362-65. The prima facie provision
stripped away the “intent to intimidate” and
criminalized what might otherwise be core
political speech not intended to intimidate.
Black, 538 U.S. at 365. The prima facie provision
muddled the true- threat requirement and
ensnared protected speech. See Black, 538 U.S.
at 367. The statute was thus unconstitutional on
its face. Black, 538 U.S. at 367. In so holding, the
Court clarified the nature of “true threats”:

18

“ ‘True threats’ encompass those statements
where the speaker means to communicate a
serious expression of an intent to commit an act
of unlawful violence to a particular individual or
group of individuals. *** Intimidation in the
constitutionally proscribable sense of the word is
a type of true threat, where a speaker directs a
threat to a person or group of persons with the
intent of placing the victim in fear of bodily harm
or death.” Black, 538 U.S. at 359-60.
¶ 25 Black made it clear that “true threats”
encompassed situations where a speaker had the
“intent to threaten.” Black, 538 U.S. at 359-60.
It remained unclear, however, whether “true
threats” were limited to situations where the
speaker’s subjective purpose was to threaten, or
whether “true threats” could be shown by some
other means.
¶ 26 In the wake of Black, the federal courts of
appeals were divided as to what constituted a
“true threat.” In United States v. Cassel, 408
F.3d 622, 633 (9th Cir. 2005), the Ninth Circuit
interpreted Black as requiring “proof that the
speaker subjectively intended the speech as a
threat.” Alternatively, at least eight other
circuits adopted or reaffirmed some form of an
objective “reasonable person”2 standard as
sufficient to prove the intent to threaten and,

19

“true threat.” United States v.
Nishnianidze, 342 F.3d 6, 15 (3d Cir. 2003) (“A
true threat is one that a reasonable recipient
familiar with the context of the communication
would find threatening.”); United States v.
Fuller, 387 F.3d 643, 646 (7th Cir. 2004)
(adopting an objective standard whereby a
communication is a “true threat” if a reasonable
person would foresee that the communication
would be interpreted by the target as a threat);
Porter v. Ascension Parish School Board, 393
F.3d 608, 616 (5th Cir. 2004) (“true threat”
occurs if an objectively reasonable person would
interpret the speech as an expression of intent to
harm, and “protected status of the threatening
speech is not determined by whether the speaker
had the subjective intent to carry out the
threat”); United States v. Mabie, 663 F.3d 322,
332 (8th Cir. 2011) (stating that “Black Court did
not hold that the speaker’s subjective intent to
intimidate or threaten is required” and
reaffirming an objective test from the
perspective of a reasonable recipient); United
States v. Jeffries, 692 F.3d 473, 480 (6th Cir.
2012)
(“The
reasonable-person
standard
winnows out protected speech because, instead
of ignoring context, it forces jurors to examine
the circumstances in which a statement is made
thus,

a

20

***.”); United States v. White, 670 F.3d 498, 50708 (4th Cir. 2012)
2 Even among the circuits that employed an
objective reasonable-person standard, division
remained as to whether it should be applied from
the vantage point of the speaker or the listener.
United States v. Clemens, 738 F.3d 1, 10-11 (1st
Cir. 2013) (discussing the disagreements among
the courts of appeals and concluding that the
objective-speaker test continued to be good law
post-Black); accord United States v. Saunders,
166 F.3d 907, 913 n.6 (7th Cir. 1999).
ordinary reasonable recipient familiar with the
context would perceive the statement as a
threat); United States v. Elonis, 730 F.3d 321,
329-30 (3d Cir. 2013) (reaffirming an objective,
reasonable-speaker test, explaining that a
subjective test would fail to protect individuals
from fear of violence); United States v. Turner,
720 F.3d 411, 420 (2d Cir. 2013) (“This Circuit’s
test for whether conduct amounts to a true
threat ‘is an objective one—namely, whether an
ordinary, reasonable recipient who is familiar
with the context of the [communication] would
interpret it as a threat of injury.’ ”); United
States v. Martinez, 736 F.3d 981, 988 (11th Cir.
2013) (adopting the Third Circuit’s reasoning
from Elonis, 730 F.3d 321, and holding that the

21

government need prove only that a reasonable
person would perceive the communication as a
real threat).
¶ 27 In the midst of these varying post-Black
standards, the United States Supreme Court
provided clarity in Elonis v. United States, 575
U.S. , 135 S. Ct. 2001 (2015). In Elonis the Court
analyzed 18 U.S.C. § 875(c) (2006), which made
it a crime to communicate a threat in interstate
commerce. Elonis, 575 U.S. at _, 135 S. Ct. at
2004. The defendant was charged with using
Facebook posts to threaten coworkers, his soonto-be ex-wife, state and local police, a
kindergarten class, and an FBI agent. Elonis,
575 U.S. at _, 135 S. Ct. at 2005-07. The jury
convicted the defendant under instructions
providing that he could be found guilty if he
communicated what a reasonable person, not the
actual defendant, regarded as a threat. Elonis,
575 U.S. at , 135 S. Ct. at 2004. The question for
the Court was whether section 875(c) also
required the defendant to be aware of the
threatening nature of the communication and, if
not, whether the first amendment required such
a showing. Elonis, 575 U.S. at _, 135 S. Ct. at
2004.
¶ 28
Section 875(c) was silent as to the
required mental state. Elonis, 575 U.S. at

22

, 135 S. Ct. at 2008-09. The Court explained
that the lack of a specified mental state did not
mean that none existed: “We therefore generally
‘interpret[ ] criminal statutes to include broadly
applicable scienter requirements, even where
the statute by its terms does not contain them.’ ”
Elonis, 575 U.S. at _, 135 S. Ct. at 2009 (quoting
United States v. X-Citement Video, Inc., 513
U.S. 64, 70 (1994)). In deciding which mental
state a statute requires, the Court generally
imposes the mental state that separates
wrongful conduct from legally innocent conduct.
Elonis, 575 U.S. at _, 135 S. Ct. at 2010. In
Elonis, the mental state needed not only to
separate wrongful conduct from innocent
activity but also to satisfy the constitutional
threshold of being a “true threat.” See Elonis,
575 U.S. at
, 135 S. Ct. at 2004-07.
¶ 29 The parties agreed that the defendant must
have known at least that he was transmitting a
communication, but the Court noted that
“communicating something is not what makes
the conduct ‘wrongful.’ ” (Emphasis in original.)
Elonis, 575 U.S. at _, 135 S. Ct. at 2011. The
crucial element that made the conduct wrongful
was
the
threatening
nature
of
the
communication. Elonis, 575 U.S. at _, 135 S.
Ct. at 2011. If criminal liability were to depend

23

on whether a reasonable person perceived the
communication as a threat, regardless of what
the defendant had in mind, then the mental
state for the crucial element would be
negligence, which the Court had long been
reluctant to infer. Elonis, 575 U.S. at
,
135 S. Ct. at 2011.
¶ 30
Rejecting the government’s argument
for a negligence standard, the Court reached
back to Hamling v. United States, 418 U.S. 87
(1974), where the defendants were convicted
under a statute that forbade the mailing of
obscene materials. Elonis, 575 U.S. at _, 135 S.
Ct. at 2011-12. In Hamling, the Court held that
criminal liability could be found if “ ‘a defendant
had knowledge of the contents of the materials
he distributed, and *** knew the character and
nature of the materials.’ ” Elonis, 575 U.S. at _,
135 S. Ct. at 2012 (quoting Hamling, 418 U.S. at
123). A defendant would know the character
of the materials if he knew that they were not
innocent but a “ ‘calculated purveyance of filth.’
” (Emphasis omitted.) Elonis, 575 U.S. at ,
135 S. Ct. at 2012 (quoting Hamling, 418 U.S. at
122). In Elonis, the “calculated purveyance” of
a threat would require that the defendant knew
the character of the communication as
threatening. Elonis, 575 U.S. at , 135 S. Ct. at

24

2012. Consequently, the Court held that the
statute’s mental-state requirement would be
satisfied if the defendant transmitted a
communication “for the purpose of issuing a
threat,
or
with
knowledge
that
the
communication will be viewed as a threat.”
Elonis, 575 U.S. at
, 135 S. Ct. at 2012.3
¶ 31 This holding was consistent with the Ninth
Circuit’s specific-intent interpretation of Black,
but it also articulated a second path to proving a
“true threat”: knowledge of the character of the
communication. The Court rejected the
alternative “reasonable person” approaches
employed by many of the federal courts of
appeals: “Our holding makes clear that
negligence is not sufficient to support a
conviction under Section 875(c), contrary to the
view of the nine Courts of Appeals.” Elonis, 575
U.S. at
, 135 S. Ct. at 2013.
¶ 32 Although the Court did not explicitly
announce that its holding also applies as a
minimum standard for a “true threat,” it would
be illogical to conclude otherwise. The Court was
tasked with interpreting the mens rea
requirement of a federal statute that
criminalizes a communication if it is a threat,
knowing that the threat must be a “true threat”
to steer clear of the protections of the first

25

amendment. See Watts, 394 U.S. at 708; Black,
538 U.S. at 359-60. Thus, the mental state
applied to section 875(c) must have
met at least the minimum
3 The Court left open the possibility, but
declined to rule, that recklessness would also
satisfy the mental-state requirement under the
facts of the case. Elonis, 575 U.S. at
, 135 S.
Ct. at 2012-13.
requirements of a “true threat.” If not, it would
have been subject to the constraints of the first
amendment, and the Court would have had to
address that topic.
¶ 33
Illinois courts have had limited
opportunity to interpret “true threats” in light of
Elonis.4
In People v. Khan, 2018 IL App (2d) 160724, ¶
36, we analyzed the constitutionality of the
disorderly conduct statute (720 ILCS 5/261(a)(3.5) (West 2012)) and determined that
Elonis held that a “true threat” could be
supported by the mental state of “intent or
knowledge.”
¶ 34 People v. Dye, 2015 IL App (4th) 130799,
was decided only two months after Elonis was
released. In Dye, the court relied on reasoning

26

similar to that of the Ninth Circuit in Cassel,
holding that under Black a “true threat”
required intent, not merely knowledge. Compare
Dye, 2015 IL App (4th) 130799, ¶¶ 9-10 (first
amendment permits criminalizing only threats
that are “true threats,” and “true threats”
require intentionality), with Cassel, 408 F.3d at
632-33 (threats are unprotected by the first
amendment only if they are “true threats,”
where the speaker subjectively intended the
speech as a threat). Thus, in construing section
12-9 “within the confines of the first
amendment,” the Dye court interpreted it as
“requiring intentionality.” Dye, 2015 IL App
(4th) 130799, ¶ 10. The court cited a single
paragraph from Elonis but did not discuss it in
detail, noting only that the “reasonable person”
standard was not sufficient to establish a “true
threat.” Dye, 2015 IL App (4th) 130799, ¶ 10.
¶ 35 In People v. Wood, 2017 IL App (1st)
143135, the court quoted language from Black
and followed Dye’s holding that section 12-9
requires intentionality. Wood, 2017 IL App (1st)
143135, ¶ 13. The Wood court restated the
holding from Elonis: “[S]tatutes criminalizing
speech
4 In addition to the three cases discussed here,
our supreme court considered Elonis in People v.

27

Relerford, 2017 IL 121094, ¶¶ 20-22, but made
no comment, under the facts of that case, about
how Elonis might have affected a “true threat”
analysis.
for being threatening require proof that the
speaker intends the communication to be a
threat and that a reasonable listener would
understand
the
communication
to
be
threatening.” Wood, 2017 IL App (1st) 143135, ¶
13. We disagree with the court’s restatement of
the holding from Elonis. As explained above, the
Elonis holding requires that the speaker (1)
intends the communication as a threat or (2)
knows that it will be viewed as a threat. Elonis,
575 U.S. at , 135 S. Ct. at 2012.
¶ 36 Applying these principles to section 12-9 of
the Code, we conclude that the statute is
constitutional. The elements of the crime are
that (1) the defendant knowingly communicated
a threat to a public official, (2) the threat would
place the public official in reasonable
apprehension of harm, and (3) the threat was
related to the performance or nonperformance of
the public official’s duties. The prescribed
mental state for the offense as a whole is
“knowingly” (720 ILCS 5/4-5 (West 2012)), which
must be applied to each element of the offense.
720 ILCS 5/4-3 (West 2012) (“If the statute

28

defining an offense prescribed a particular
mental state with respect to the offense as a
whole, without distinguishing among the
elements thereof, the prescribed mental state
applies to each such element.”). The threshold
question is whether, by applying the mental
state of “knowingly” to each element of the
offense, the statute proscribes only “true
threats,” which are outside the protections of the
first amendment and eligible for proscription by
our legislature. We hold that the “threat” in
section 12-9 must be a “true threat.” As
discussed above, the “true threat” requirement is
satisfied if the defendant transmits the
communication (1) with intent to issue a threat
or (2) with knowledge that it will be viewed as a
threat. Elonis, 575 U.S. at , 135 S. Ct. at 2012.
Here, section 12-9 clearly requires that the
defendant know that he is delivering a “true
threat.” Accordingly, the statute is not
constrained by the first amendment and is
constitutional on its face.
¶ 37 Any doubt that section 12-9 was applied
constitutionally in the present case
was
eliminated by the jury instructions. The trial
court recognized that Dye held that a “true
threat” requires intentionality. It approved a
modified version of the Illinois pattern jury

29

instruction that defines the offense (Illinois
Pattern Jury Instructions, Criminal, No. 11.49
(approved May 2, 2014)), replacing the words
“containing a threat” with “which he intends as
a true threat.” The modified instruction read as
follows:
“A person commits the offense of threatening a
public official (bodily harm/conveyed because of
hostility) when he knowingly delivers or
conveys, directly or indirectly, to a public official
by any means a communication which he intends
as a true threat which would place the public
official in reasonable apprehension of immediate
or future bodily harm and the person conveys the
true threat because of the hostility of the person
making the threat toward the status or position
of the public official.” (Emphases added.)
The trial court supplemented this instruction
with a nonpattern instruction on the definition
of a “true threat:”
“A true threat occurs where a speaker directs a
threat to a person or group of persons with the
intent of placing the victim, or a member of his
or her immediate family, in fear of bodily harm,
destruction of property or death. The speaker
need not actually intend to carry out the threat.”

30

See Black, 538 U.S. at 359-60; Dye, 2015 IL App
(4th) 130799, ¶ 9. By relying on Dye, the trial
court ensured that the jury, in order to convict
defendant under section 12-9, had to find that
the communication was a “true threat,” by which
he intended to place the victim in reasonable
apprehension of harm. The instructions were
consistent with the first prong of the holding in
Elonis, that “the defendant transmits a
communication for the purpose of issuing a
threat.” Elonis, 575 U.S. at , 135 S. Ct. at 2012.
Because Dye limited a “true threat” to one with
intentionality, the trial court had no reason to
include the second prong of the holding in Elonis,
that the defendant acted “with knowledge that
the communication will be viewed as a threat.”
Elonis, 575 U.S. at _, 135 S. Ct. at 2012. By
requiring that the jury convict only if it found
that
defendant
actually
intended
to
communicate a threat, without giving it the
option to convict if it found only that he knew
that the message would be viewed as a threat,
the trial court afforded defendant greater
protection than he was entitled to under the
constitution. Consequently, section 12-9 is
constitutional on its face and it was applied here
in a constitutional manner.

31

¶ 38 Defendant’s argument that the statute is a
content-based limitation on
speech,
and
therefore subject to strict scrutiny, is misplaced.
As stated, “true threats” is a well-defined class
of speech that falls outside the protections of the
first amendment. Chaplinsky, 315 U.S. at 57172. Having held that the statute requires a
“true threat,” it is of no consequence that the
statute is a content-based restriction on speech,
because this class of speech is not protected by
the first amendment. A constitutional strictscrutiny analysis is therefore not required.
¶ 39 Likewise, defendant’s arguments that the
statute is unconstitutional because it is not
limited to “true threats” and is thus overbroad
are incorrect. A defendant must knowingly
transmit a “true threat” to be convicted under
the statute, which necessarily confines its
application to speech not protected by the first
amendment. See Grayned v. City of Rockford,
408 U.S. 104, 114-15 (1972) (for determining
whether a statute is overbroad, “[t]he crucial
question *** is whether the [statute] sweeps
within its prohibitions what may not be
punished under the First and Fourteenth
Amendments”). Section 12-9 does not sweep
protected speech within its prohibitions, because
it regulates only “true threats,” which are not

32

protected. Additionally, because we have held
that the statute regulates only “true threats,”
which are unprotected, there is no need for us to
address defendant’s argument that it does not
regulate “speech integrally related to criminal
conduct.”
¶ 40 B. Sufficiency of the Evidence
¶ 41 Defendant next argues that, even if section
12-9 is constitutional, the State failed to prove
him guilty beyond a reasonable doubt, because
“there was no evidence that [defendant]
intended his message to [Representative] Ives as
a true threat.” The State responds that the
language, tone, and circumstance of defendant’s
communication were sufficient for a rational
trier of fact to infer his intent to deliver a “true
threat.” When a defendant challenges the
sufficiency of the evidence, we ask whether, after
viewing the evidence in the light most favorable
to the State, any rational trier of fact could have
found the essential elements of the crime beyond
a reasonable doubt. People v. Brown, 2013 IL
114196, ¶ 48 (citing Jackson v. Virginia, 443 U.S.
307, 318-19 (1979)). It is up to the trier of fact to
weigh the evidence and resolve conflicts in the
testimony, and we will not substitute our
judgment for that of the trier of fact absent a
showing that the “evidence is so unreasonable,

33

improbable, or unsatisfactory as to justify a
reasonable doubt of the defendant’s guilt.”
Brown, 2013 IL 114196, ¶ 48.
¶ 42 To sustain a guilty verdict, the State had to
prove the essential elements of the crime
charged (People v. Rothermel, 88 Ill. 2d 541, 544
(1982)), which are that (1) the defendant
knowingly communicated a threat to a public
official, (2) the threat would place the public
official in reasonable apprehension of harm, and
(3) the threat was related to the performance or
nonperformance of the public official’s duties.
720 ILCS 5/12-9(a) (West 2012). Defendant
challenges only the first element, that he
knowingly communicated a threat.
¶ 43
As discussed, the jury was instructed
that the threat had to be a “true threat,” which
could be proved by showing that (1) defendant’s
intent was to threaten or (2) he knew that the
communication would be viewed as a threat.
Elonis, 575 U.S. at _, 135 S. Ct. at 2012. (As
noted, however, the jury was instructed only on
the first prong.) Defendant argues that he did
not intend to threaten Representative Ives and
that the evidence did not show otherwise. He
testified that the purpose behind his
communication was to express disagreement
with Representative Ives’s political positions,

34

not to threaten. He argues that his testimony
went “unrebutted” or “without significant
contradiction” and that the jury was not entitled
to ignore his testimony. People v. Jordan, 4 Ill.
2d 155, 162-63 (1954).
¶ 44 He asserts that the only logical conclusion
that could be drawn from his statements about
putting people in the crosshairs of a gun and that
“perhaps we should do the same for you” was
that it was a conditional threat to create a
website. He explains that he disagreed with
Representative Ives’s position on the second
amendment and was disturbed after reading an
article she wrote that read in part:
“I believe Second Amendment rights are a
defense against tyranny. They prevent the
government from holding more power than the
people it serves. I believe law-abiding citizens,
with proper training, should have the right to
own and carry firearms if they so choose.”
In a separate op-ed that appeared in the Chicago
Tribune,
Representative
Ives
expressed
displeasure with the leadership of Speaker
Madigan. She wrote:
“Yes, it’s business as usual in Illinois. The
question is how much more damage needs to be

35

done before we stop accepting ‘business as
usual?’ How many more jobs do we need to lose?
How many more times should our credit be
downgraded?
How many more businesses
need to close? How much more debt do we need
to rack up? How many more political games have
to be played on tax-payer time before we insist
on something better? How much more waste and
corruption do we have to endure before we
demand revolution?”
From these passages, defendant maintains that
it was reasonable for him to be concerned that
Representative Ives was calling for “violent,
armed revolution against Speaker Madigan” and
“tyrants.” He claims that he was only warning
her of the consequences that might flow from her
advocacy of such a revolution.
¶ 45 Defendant compares the circumstances of
his statement to those in Dye, where the court
reversed a conviction under section 12-9: “[W]e
see no evidence justifying a reasonable inference
that *** [the defendant] intended to convey the
idea of violent retribution ***.” Dye, 2015 IL App
(4th) 130799, ¶ 12. In Dye, the defendant was
upset with his public defender after she told him
that she would have to turn over to the
prosecutor evidence harmful to his case. Dye,
2015 IL App (4th) 130799, ¶ 3. He threatened to

36

complain about her to the judge and accused her
of working against him for the State. Dye, 2015
IL App (4th) 130799, ¶ 4. As he left her office
through a waiting room, he repeated the words,
“I’m gonna get you.” When she asked if he was
threatening her, he responded, “No, no, I ain’t
threatening you.” The court focused on the word
“get” and reasoned that it had many nonviolent
connotations, particularly in light of the fact that
the defendant specifically and in real time
denied that he meant the statement as a threat.
Dye, 2015 IL App (4th) 130799, ¶¶ 11-12.
¶ 46 Dye is distinguishable. Defendant here did
not personally know Representative Ives and
was not speaking to her face-to-face. He left a
prepared statement on her voicemail system at
around 11 p.m. on a weekday night, well after
business hours. He used the term “we” when
referring to himself, which suggested that he
was part of a larger collective. His was a
calculated statement that came days after the
radio interview that he claims triggered the call,
not an angry and excited utterance brought
about by adverse news he had just received.
¶ 47 Based on all of the evidence, we reject
defendant’s argument that his “unrebutted
testimony” exonerates him. His second message
to Representative Ives began with a reference to

37

Sarah Palin and her map that portrayed
Democratic legislators in the crosshairs of a gun.
The evidence showed that, within a few months
after Sarah Palin posted that map, one of those
legislators, Congresswoman Gabby Giffords of
Arizona, was shot in the head and that
defendant was aware of the Giffords shooting
when he composed his statement and left the
message. A reasonable inference from his
knowledge of the shooting is that he meant to
communicate that a similar event might befall
Representative Ives.
¶ 48 Defendant’s testimony about the content of
his first message differed from Murphy’s. He
testified that he referred to Representative
Ives’s “naïve and reckless” comments about a
proposed concealed-carry law. He said that she
was targeting Speaker Madigan and referring to
him as a tyrant. Defendant claimed that he
composed the lengthy statement in a document
on his laptop, but he was unable to corroborate
his testimony about the call because he had
deleted the document. Not only was defendant’s
testimony not corroborated, it was directly
refuted. Murphy testified that the content of the
first call “was just personal” and that she deleted
the message because the speaker called
Representative Ives the “C-word,” a word that

38

defendant testified that he had no recollection of
using, despite remembering copious amounts of
other details about the call. According to
Murphy, there was nothing in the first message
about Speaker Madigan or the second
amendment.
The jury heard all of this
testimony.
It was in the best position to
observe the verbal and nonverbal cues and
assign weight to each. It was within the province
of the jury to credit Murphy’s testimony over
defendant’s.
¶ 49
It appears from the record that
defendant was unaware of the existence of the
recording of his second message until the
conclusion of his interview with Officer Scott.
Officer Scott testified that he asked defendant
about the contents of that call and defendant
described it as:
“We know where you live and maybe we should
construct the same website, too, and, remember,
the assault weapons ban has been lifted.”
Compare those words to defendant’s actual
message, which was memorialized in the
recording: “Your Tea Party brethren, Sara[h]
Palin, put up a map that included the names,

39

locations, faces of Democratic candidates, and
put them in the cross-hairs of a gun. Perhaps we
should do the same for you. We know where you
live. There is no longer an assault weapons ban.
Perhaps you should think about that before you
speak the next time, you stupid fucking bitch.”
The account defendant gave to the police was
less menacing than his actual message. A
reasonable inference from the difference is that
he understood that what he said was
threatening and, when faced with a police
investigation, he attempted to mitigate the
content of his message.
¶ 50 Defendant explained that Representative
Ives was trying to incite an armed revolution and
that he was trying only to make her aware of the
effects of those words. He repeatedly used the
collective pronoun “we” during the message,
suggesting that he was part of some larger
group. It is difficult to envisage a legitimate
purpose for such language if he was trying only
to express his personal opposition to her political
views. He followed the “cross-hairs of a gun”
comment immediately with “we know where you
live” and “there is no longer an assault weapons
ban.” He testified that when he delivered the
message he knew that Giffords had been shot
and severely injured. His claim that his

40

testimony went unrebutted is contradicted by
the record. Based on the evidence, it was
certainly reasonable for the jury to conclude that
defendant’s explanation was strained and that
he intended to threaten Representative Ives.
¶ 51 C. Admissibility of Evidence
¶ 52 Defendant claims that the trial court
erred by permitting Representative Ives to
testify to her reaction to the message. Defendant
argues that her subjective feelings of
apprehension were not an element of the offense
and were therefore irrelevant and highly
prejudicial. Quoting Watts, 394 U.S. at 708, the
State responds that “the reaction of the
listeners” is relevant to determining whether the
communication was a “threat.” The admissibility
of evidence is within the sound discretion of the
trial court, and we will not disturb such a ruling
absent an abuse of discretion. People v. Adkins,
239 Ill. 2d 1, 23 (2010). “A trial court abuses its
discretion when no reasonable person would
take the view adopted by the trial court.” People
v. Axtell, 2017 IL App (2d) 150518, ¶ 90.
¶ 53
Defendant argues that Representative
Ives’s
testimony
about
her
subjective
apprehension of harm was irrelevant because
section 12-9 requires only that a public official

41

would be placed in “reasonable apprehension of
immediate or future bodily harm.” 720 ILCS
5/12-9(a)(1)(i) (West 2012). Defendant appears to
argue that the term “reasonable” refers only to
an objective test of how a fictional reasonable
person would view the communication, rather
than to whether the actual target of the
communication reasonably viewed it as a threat.
Defendant offers no authority to support this
contention. Illinois Rule of Evidence 401 defines
relevant evidence as evidence that has any
tendency to make the existence of any fact in
controversy more or less probable. Ill. R. Evid.
401 (eff. Jan. 1, 2011). “Relevancy is established
where a fact offered tends to prove a fact in
controversy or renders a matter in issue more or
less probable.”
(Internal quotation marks
omitted.) People v. Free, 94 Ill. 2d 378, 413
(1983). Representative Ives’s testimony about
how she felt after hearing the message was
relevant to whether she would be placed in
“reasonable apprehension of immediate or
future bodily harm.” It was particularly relevant
here because “reasonable apprehension” is an
element of the offense and it was for the jury to
decide
whether
Representative
Ives’s
apprehension was reasonable.

42

¶ 54 Defendant next argues that Representative
Ives’s testimony was “extremely prejudicial”
because it tended to show the impact of the crime
on the alleged victim during the guilt phase of
the trial. Defendant cites, without any
elaboration, three cases that are inapposite.
People v. Hope, 116 Ill. 2d 265, 276-78 (1986)
(prosecutor’s uninvited comments about a
murdered victim’s family were an improper
appeal to the emotions of the jurors); People v.
Blue, 189 Ill. 2d 99, 130 (2000) (prosecutor’s
argument that a murdered police officer’s family
needed to hear from the jury was patently
immaterial to the defendant’s guilt or
innocence); People v. Bernette, 30 Ill. 2d 359, 371
(1964) (prosecutor’s comments during closing
argument about a murder’s impact on the
victim’s family were irrelevant and highly
prejudicial). None of these cases involved the
victim of a crime testifying with regard to an
element of the offense, which is what happened
here. Representative Ives’s testimony went
directly to an element of the offense, and it added
context that the jury could use to determine
whether she would reasonably see the
communication as a threat. Representative
Ives’s testimony was much more probative than
prejudicial. “Evidence is admissible if it is
relevant to an issue in dispute and its probative

43

value is not substantially outweighed by its
prejudicial effect.” People v. Herrero, 324 Ill.
App. 3d 876, 881 (2001). The trial court did not
abuse its discretion by permitting the testimony.
¶ 55 D. Prosecutor’s Comments During Closing
Argument
¶ 56 We turn now to defendant’s claims that
comments the prosecutor made during his
closing argument deprived defendant of a fair
trial. He argues that the prosecutor improperly
argued that (1) the jury could ignore the context
of defendant’s communication, (2) a threat is not
protected by the first amendment, (3) “no one
should have to endure what Jeanne Ives endured
that day,” (4) it was not for the jury to consider
whether defendant had a gun in his house, (5)
defendant admitted during cross-examination
that his message would invoke images of the
Giffords shooting, and (6) a threat could be
inferred because other witnesses reacted as if
the communication were a threat.
¶ 57
Prosecutors are granted wide latitude
in delivering closing arguments.
People v.
Perry, 224 Ill. 2d 312, 347 (2007). They may
comment “on the evidence and on any fair and
reasonable inference[s]” that can be derived from
that evidence. Perry, 224 Ill. 2d at 347. When

44

reviewing for error, we look at the argument as
a whole, rather than focusing only on select
phrases or remarks. Perry, 224 Ill. 2d at 347.
Improper remarks during closing argument do
not warrant reversal unless they substantially
prejudice the defendant. People v. Burman, 2013
IL App (2d) 110807, ¶ 25. We recognize that our
supreme court has employed both the de novo
and the abuse-of-discretion standards in
reviewing comments during closing arguments.
See People v. Wheeler, 226 Ill. 2d 92, 121 (2007)
(de novo); Blue, 189 Ill. 2d at 128 (abuse of
discretion). It is unnecessary for us to determine
which standard is proper in this case, as the
result would be the same under either standard.
¶ 58 Defendant first argues that the prosecutor
misstated the law by arguing that the jury could
ignore the context of the entire message: “Folks,
if any part of that message is a threat, it’s a
threat. What you heard was a threat. It doesn’t
matter what the first part of it was.” Defendant
argues that his intent determined whether the
communication was a “true threat” and that the
prosecutor’s comment asked the jury to ignore
context from which they could ascertain his
intent. We disagree. The prosecutor was
properly arguing that the jury should focus on
the threat and not weigh the nonpreserved part

45

of the message too heavily. The trial court
properly overruled the objection, as this was not
error.
¶ 59 Defendant next claims that the prosecutor
was trying to confuse the jury by telling them
that a threat is not protected by the first
amendment: “If this is a threat, and it is a threat,
it is not protected by the First Amendment.”
Defendant argues that only a “true threat” is not
protected and that it was improper to tell the
jury that a mere “threat” is not protected. The
prosecutor was not misleading the jury. The
term “threat” is used in the statute. Moreover,
he used the term “true threat” 13 times during
his closing argument and thoroughly explained
that the jury needed to find that the
communication was a “true threat.” The court
gave verbal and written instructions that the
threat must be found to have been a “true threat”
and supplemented those instructions with a
definition of “true threat.” This comment was not
improper.
¶ 60 Defendant argues that the prosecutor
invited the jury to convict based on its anger at
the suffering of the victim rather than on the
evidence: “Ladies and gentlemen, no one should
have to endure what Jeanne Ives endured that
day.” Defendant claims that it was improper to

46

showcase the impact of the crime on
Representative Ives. As noted above, the victim’s
reasonable apprehension of the threat was an
element of the offense charged. It was not
improper to argue an element of the crime.
¶ 61 The prosecutor also attacked the relevancy
of whether defendant actually possessed the
means to carry out the threat: “So all that
testimony from [defendant] about we don’t have
guns in the house, I wasn’t going to actually go
there and do anything to her. That’s not for you
to consider.”
The trial court sustained
defendant’s objection and added: “They can
consider all the evidence they’ve heard.” The
prosecutor’s statement might have been
improper as to its instruction that the jury
should not consider a portion of the evidence, but
it did not affect the verdict. Generally,
sustaining an objection and instructing the jury
to disregard the remark are sufficient to cure
any prejudice. People v. Ramsey, 239 Ill. 2d 342,
438 (2010). In any event, the offense charged
required that the prosecution demonstrate only
that a threat was made, not that defendant
actually intended to carry out the threat, and
any argument attacking the relevancy of
defendant’s ability to follow through on the
threat was not improper. To the extent that a

47

portion of this comment was improper, it did not
substantially prejudice defendant and does not
warrant reversal.
¶ 62 The prosecutor also characterized part of
defendant’s testimony as follows: “And you
heard on cross-examination *** that he knew
that the Sarah Palin article was going to invoke
images of Gabby Giffords.” Defendant’s objection
as to the accuracy of that statement was
sustained. Defendant admitted during crossexamination that he was aware of the Giffords
shooting when he delivered his message, but he
did not testify that he knew that the article
would invoke images of the shooting. The
prosecutor thus gave an inaccurate restatement
of defendant’s testimony, which was improper.
But the court sustained the prompt objection,
and the misstatement was immediately
corrected. In light of the sustained objection,
along with the trial court’s instruction that the
jury should disregard any statements made
during closing argument that were not based on
the evidence (Illinois Pattern Jury Instructions,
Criminal, No. 1.03 (4th ed. 2000)), defendant
was not substantially prejudiced by this remark
and it does not warrant reversal.
¶ 63 Defendant lastly claims that the prosecutor
improperly argued that defendant’s message

48

could be considered a threat from the reactions
of Murphy and the police.
For example,
Murphy phoned the police after hearing the
message and the police followed up by contacting
defendant. Defendant did not object to this
comment at trial and thus forfeited the issue.
Burman, 2013 IL App (2d) 110807, ¶ 32 (“To
preserve an issue for review on appeal, a
defendant must object to the error at trial and
include the objection in a posttrial motion.”).
Defendant states that this issue should
nonetheless be reviewed under the plain-error
doctrine, but he makes no cogent legal argument
as to why plain error should apply. Forfeiture
aside, the prosecutor’s comments were not
improper. He described the actions that the
witnesses testified to taking after hearing the
message. He suggested that the jury could
logically infer that those witnesses would not
have taken those actions unless they believed
that the message contained a threat. As
discussed, the victim’s reasonable apprehension
of a threat is an element of the offense. See Free,
94 Ill. 2d at 413. These witnesses’ reactions
helped to form the context of the message and
whether Representative Ives reasonably
apprehended harm. Therefore, the comments
were not error.

49

¶ 64 III. CONCLUSION
¶ 65 For the foregoing reasons, we affirm the
judgment of the circuit court of Du Page County.
As part of our judgment, we grant the State’s
request that defendant be assessed $50 as costs
for this appeal. 55 ILCS 5/4-2002(a) (West 2016);
People v. Nicholls, 71 Ill. 2d 166, 178 (1978).
¶ 66

Affirmed.

50

APPENDIX C
IN THE CIRCUIT COURT OF DUPAGE
COUNTY FOR THE EIGHTEENTH JUDICIAL
CIRCUIT OF ILLINOIS
_____________________
No. 13-CF-647
_____________________
[August 7, 2015]
_____________________
THE COURT:
Well, I've read the statutes over and over
again, and it's an interesting question. As
I read these cases, it seems in my mind
particularly after this latest case that came
down -- it's an Appellate Court case. They seem
to indicate they were really talking about the
instructions that should be given to perhaps
ensure that the statute does, in fact, cover
constitutional requirements.
The statute says reasonable apprehension of
the family. The question in all these cases seems
to be from whose viewpoint is this supposed to
be. Elonis talks about it a little bit, but they don't
give us a real answer. But it seems to be -- seems

51

to be saying in this -- and there are some other
cases as well. It seems to be saying that the
person has got to knowingly make the threat in
the sense that he knew what he was doing; it
wasn't a mistake of some kind. And he -- the
person making the threat – must know that this
will cause another person to interpret it as a
threat.
Now, in this case that came down, they talk
about it. They talk about this true threat which
is defined in some of the other cases. And they
say, We interpret Section 12-9 as requiring
intentionality. The government had to prove
conscious wrongdoing, not merely that a
reasonable
person
would
regard
the
communication as a threat.
So it seems to me what really we're talking
about jury instructions are going to have to be
based on intentionally did it, made the threat,
and had the intention when making it of causing
others to be in fear or being threatened. Now,
that's not an easy thing to prove, the second
portion, because you've got to talk about the
person making the threat, his mental state. They
talk about this in this case that basically your
mental state can be inferred by surrounding
circumstances; circumstantial evidence if there

52

is any that would establish what his intent -what he intended to, in fact, make others believe
that this was a legitimate threat. So I'm going to
deny the motion as to constitutionality with the
understanding that it has to be based on proper
jury instructions.

53

